TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Plans for the Implementation of
                     Merchant Card Reporting Could Result
                     in Burden for Taxpayers and Problems
                        for the Internal Revenue Service



                                           July 26, 2011

                              Reference Number: 2011-40-065




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


PLANS FOR THE IMPLEMENTATION OF                       The law requires payment settlement entities to
MERCHANT CARD REPORTING COULD                         withhold a percentage of gross receipts (backup
RESULT IN BURDEN FOR TAXPAYERS                        withholding) on those merchants who do not
AND PROBLEMS FOR THE INTERNAL                         ultimately provide a valid Taxpayer Identification
                                                      Number and name that match IRS records.
REVENUE SERVICE
                                                      Because of the increased volume of Forms
                                                      1099-K resulting from merchant card reporting
Highlights                                            requirements, there is a risk that mismatches
                                                      might not be resolved before backup withholding
                                                      becomes mandatory. The IRS’s risk
Final Report issued on July 26, 2011                  assessment and implementation plan did not
                                                      contain adequate details regarding these risks
Highlights of Reference Number: 2011-40-065           as well as appropriate contingencies. TIGTA
to the Internal Revenue Service Deputy                also found that the risk assessment and
Commissioner for Services and Enforcement.            implementation plan prepared by the IRS lacked
IMPACT ON TAXPAYERS                                   other details.

The merchant card reporting section of the            Finally, the IRS did not properly account for
Housing and Economic Recovery Act of 2008             funds appropriated for merchant card reporting
was designed to assist the Internal Revenue           during the project’s initial stages.
Service (IRS) in matching income from sales           WHAT TIGTA RECOMMENDED
paid with credit or debit cards to income claimed
on a tax return. This is an effort to reduce the      TIGTA recommended that the IRS monitor the
Tax Gap.                                              amounts reported for merchant card and
                                                      third-party payments to ensure there is no
WHY TIGTA DID THE AUDIT                               confusion about where to enter the amounts, the
This review was initiated to determine whether        risk assessment and implementation plan
the IRS has a complete and detailed plan in           adequately address mismatching names and
place to control and schedule the                     Taxpayer Identification Numbers, sufficient detail
implementation of the merchant card reporting         is added to future risk assessments to address
law as intended by Congress. The new law will         the full scope of the project, and future
add millions of additional information reporting      implementation plans indicate the full scope of
documents to the IRS computer systems.                the project and expected due dates. TIGTA also
                                                      recommended that the IRS ensure financial
WHAT TIGTA FOUND                                      reporting is added to the risk assessment and
                                                      implementation plan so costs and schedules are
The new law requires payment settlement               tracked and reported timely, and costs are
entities to report merchant card and third-party      accumulated when resources are first used.
payments to the IRS on Merchant Card and
Third Party Network Payments (Form 1099-K).           In their response to the report, IRS officials
One of the stated goals of merchant card              agreed with the recommendations and are
reporting is to assist the IRS in matching income     planning appropriate corrective actions.
from sales to income reported on tax returns.
TIGTA found that the IRS’s redesigning of
Tax Year 2011 income tax forms may not
facilitate a direct match between sales reported
on Forms 1099-K and amounts reported on tax
returns. Based on our finding, the IRS
immediately made adjustments to one tax form
and is reviewing the other affected forms to
make similar improvements.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 26, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Plans for the Implementation of Merchant Card
                             Reporting Could Result in Burden for Taxpayers and Problems for the
                             Internal Revenue Service (Audit # 201040028)

 This report presents the results of our review to determine whether the Internal Revenue Service
 has a complete and detailed plan in place to control and schedule the implementation of the
 merchant card reporting law as intended by Congress. This audit is included in our Fiscal Year
 2011 Annual Audit Plan and addresses the major management challenge facing the Internal
 Revenue Service of Implementing Health Care and Other Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                                  Plans for the Implementation of Merchant Card
                                Reporting Could Result in Burden for Taxpayers and
                                    Problems for the Internal Revenue Service




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          A Multidimensional Team Is Planning the Implementation ......................... Page 3
          Further Changes to Tax Forms May Be Required to
          Facilitate Matching Merchant Card Receipts With
          Amounts Reported on Tax Returns............................................................... Page 3
                    Recommendation 1:........................................................ Page 7

          Steps Were Taken to Reduce Mismatches of Taxpayer
          Identification Numbers and Names on Information
          Documents, but the Risk of Backup Withholding Caused
          by Mismatched Documents Still Exists ........................................................ Page 7
                    Recommendation 2:........................................................ Page 8

          Additional Details in the Risk Assessment and
          Implementation Plan Could Increase the Chance
          of Successful Implementation ....................................................................... Page 9
                    Recommendation 3:........................................................ Page 12

                    Recommendation 4:........................................................ Page 13

          Financial Reporting Was Not Addressed When
          Expenditures Began to Be Incurred .............................................................. Page 14
                    Recommendation 5:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Management’s Response to the Draft Report ...................... Page 21
         Plans for the Implementation of Merchant Card
       Reporting Could Result in Burden for Taxpayers and
           Problems for the Internal Revenue Service




                 Abbreviations

FY         Fiscal Year
GAO        Government Accountability Office
IRDM       Information Reporting and Document Matching
IRS        Internal Revenue Service
MITS       Modernization and Information Technology Services
TIN        Taxpayer Identification Number
                             Plans for the Implementation of Merchant Card
                           Reporting Could Result in Burden for Taxpayers and
                               Problems for the Internal Revenue Service




                                            Background

Section 3091 of the Housing and Economic Recovery Act of 20081 added Section 6050W to
Title 26 of the United States Code (hereafter referred to as merchant card reporting), which
requires payment settlement entities2 to report payments made to merchants in settlement of
payment card3 transactions. The reports of total gross receipts paid to each merchant are to be
sent to the Internal Revenue Service (IRS) by February 28 (March 31 if filing electronically) of
each year, with the first reporting due in Calendar Year 2012. This reporting is expected to assist
the IRS in matching income from sales to income reported on tax returns in an effort to reduce
the Tax Gap.4 The law also requires payment settlement entities to withhold a percentage of
gross receipts (backup withholding) on those merchants who do not ultimately provide a valid
Taxpayer Identification Number (TIN) and name that matches to IRS records. If the payment
settlement entities do not withhold the percentage amount when required, they are then held
responsible for the amount due. The law is effective for tax returns with calendar years
beginning after December 31, 2010. The backup withholding of 28 percent is applicable to
amounts paid after December 31, 2011. Third-party network businesses5 are required to report
only if for the calendar year: 1) the aggregate reportable payment transactions exceed $20,000,
and 2) the aggregate number of these transactions exceeds 200.
The House Committee on Small Business held a hearing on June 12, 2008, on the proposed
reporting requirement that later became part of Public Law 110-289. Interested parties submitted
testimony and expressed opinions on the effect the proposed legislation would have on small
businesses and payment settlement entities. Some had serious concerns about privacy and data
security. Others believed the negligible effect this legislation would have on the Tax Gap would
not justify the significant burden placed on small businesses. One payment settlement entity
voiced concerns about the cost of compliance and the backup withholding. After the legislation
became law on July 30, 2008, the IRS issued proposed regulations on November 23, 2009, and
requested comments by January 25, 2010, for a subsequent public hearing. The hearing was held
on March 15, 2010. The IRS issued final regulations on August 16, 2010, and later issued a draft
form to be used for the reporting.


1
  Pub. L. No. 110-289, 122 Stat. 2654 (2008).
2
  “Payment settlement entity” as used in this document means the banks and other organizations with contractual
obligations to make payment to participating payees (merchants) in settlement of payment cards, or third-party
settlement organizations.
3
  Generally credit and debit cards, as well as certain electronic payments.
4
  The Tax Gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that
is paid voluntarily and on time.
5
  Systems such as “Pay Pal.”
                                                                                                          Page 1
                             Plans for the Implementation of Merchant Card
                           Reporting Could Result in Burden for Taxpayers and
                               Problems for the Internal Revenue Service



The reporting requirements of Section 6050W are not entirely new to the IRS. The IRS routinely
uses information documents to verify income items on individual income tax returns and has
done so for many years.
The Department of the Treasury estimated this new law would result in the additional collection
of almost $10 billion over 10 years. A letter dated April 3, 2007, was presented to the
Committee on Ways and Means, Subcommittee on Oversight, which commented on the various
estimates of additional income this law was to generate. The letter stated that, “The uncertainty
over the benefits of this reporting requirement is most evident in the Federal budget proposals
from FY [Fiscal Year] 2007 and FY 2008. In the FY 2007 report, the Treasury estimated that the
reporting requirement would help generate $9 million in 2007, $92 million during the years
2007–2011, and $225 million during the years 2007–2016. In contrast, the FY 2008 report stated
that the reporting requirement would help generate $113 million in 2008, $3.3 billion during the
years 2008–2012, and $10.8 billion during the years 2008–2017. Both the FY 2007 and
FY 2008 reports are based on data gathered from the 2001 tax year, and there is no explanation
for how the proposed revenue estimate jumped astronomically from 2007 to 2008.”6 While the
Department of the Treasury made its own estimate of the benefits of this law, the IRS currently
does not have a completed estimate of how much it expects to collect.
This review was performed at the IRS National Headquarters in Washington, D.C., with the IRS
Small Business/Self-Employed Division taking the role of liaison and forwarding requests to the
proper offices throughout the IRS. The audit was conducted during the period January 2010
through January 2011. We initiated this review prior to all phases of the implementation being
completed. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
 Electronic Transactions Association Executive Director to Representative John Lewis, April 3, 2007, House
Committee on Ways and Means, Washington, D.C., http://waysandmeans.house.gov.
                                                                                                         Page 2
                         Plans for the Implementation of Merchant Card
                       Reporting Could Result in Burden for Taxpayers and
                           Problems for the Internal Revenue Service




                                Results of Review

A Multidimensional Team Is Planning the Implementation
The IRS has a multidimensional team to plan and implement merchant card reporting. The team
consists of executive level management, project management, and program office liaisons to
interact with the various functions of the IRS affected by this law.
Team meetings are held at least monthly to discuss progress, issues, and solutions that have
developed and additional schedule items. A list of working assumptions was put together early
in the process, a high-level risk management plan addressing three separate laws was put
together and has been updated, and an action plan has been developed. A list of the forms that
need to be revised and the new data lines that need to be put into IRS computer systems for the
new reporting requirement have been initiated. The IRS is implementing merchant card
reporting and taking subsequent actions necessary to make use of the data and implement other
newly passed laws that have similar reporting requirements. Overall, the IRS has the structure in
place to implement this legislative provision. However, we do have some concerns.

Further Changes to Tax Forms May Be Required to Facilitate
Matching Merchant Card Receipts With Amounts Reported on Tax
Returns
The new law requires payment settlement entities to report merchant card and third-party
network payments to the IRS on Merchant Card and Third Party Network Payments
(Form 1099-K). Based on our review of the regulations issued by the IRS, the payments
reported on Form 1099-K may include cash back. For example, when a customer makes a
purchase, pays for the purchase with a debit or credit card, and requests cash back from the
merchant, the entire amount of the transaction, including the cash back, would be included on
Form 1099-K as a merchant card purchase. However, the amount of cash back received by the
customer is not income to the merchant.
The IRS is in the process of redesigning the Tax Year 2011 income tax forms and the
corresponding instructions to accommodate the reporting of these merchant card and third-party
payments. One of the stated goals of the merchant card reporting legislation is to assist the IRS
in matching income from sales to income reported on tax returns to reduce the Tax Gap. In our
opinion, this matching will only be efficient and effective if reporting documents and tax returns
are designed to facilitate a direct match between the two sources.



                                                                                            Page 3
                         Plans for the Implementation of Merchant Card
                       Reporting Could Result in Burden for Taxpayers and
                           Problems for the Internal Revenue Service



We are concerned the proposed redesign of some tax forms will not facilitate such a match. The
forms involved include the following:
   •   U.S. Return of Partnership Income (Form 1065).
   •   U.S. Corporation Income Tax Return (Form 1120).
   •   U.S. Income Tax Return for an S Corporation (Form 1120S).
   •   Profit or Loss From Business (Schedule C – U.S. Individual Income Tax Return
       (Form 1040)).
Figure 1 shows the new Form 1099-K. Figure 2 describes how income on Schedule C is
currently calculated. Figure 3 describes the IRS’s planned redesign of Schedule C at the time of
our review.


                      Figure 1: Proposed Form for Merchant Card
                          and Third-Party Network Payments




                                       Source: www.IRS.gov.




                                                                                          Page 4
                              Plans for the Implementation of Merchant Card
                            Reporting Could Result in Burden for Taxpayers and
                                Problems for the Internal Revenue Service



                           Figure 2: Lines 1–5 From 2010 Schedule C

                  Part I - Income
                    1 Gross receipts or sales                                     $
                    2 Returns and allowances                                      $
                    3 Subtract line 2 from line 1                                 $
                    4 Cost of goods sold                                          $
                    5 Gross profit. Subtract line 4 from line 3                   $
                Source: Profit or Loss From Business Schedule C (2010).


                Figure 3: Income Lines From Redesigned 2011 Schedule C

                  Part I - Income
                    1a Merchant card and third-party payments                     $
                       received
                    1b Gross receipts or sales not reported on                    $
                       line 1a
                    1c Income reported to you on Form W-2                         $
                       (Statutory Employees)
                    1d Total Gross Receipts                                       $
                                                        7
                    2 Returns and allowances                                      $
                    3 Subtract line 2 from line 1d                                $
                    4 Cost of goods sold                                          $
                    5 Gross profit. Subtract line 4 from line 3                   $
                Source: Redesigned Schedule C (2011) provided by the IRS.

Form 1065, Form 1120, and Form 1120S are similarly designed. As designed at the time of our
review, taxpayers and tax preparers were to be told in the instructions to include “cash back” on
line 2, “returns and allowances.”8

7
  As a result of our discussions with the IRS, this line on Schedule C was changed to read, “Returns and allowances
plus any “cash back” amounts included on line 1a.”
8
  Taxpayers filing Supplemental Income and Loss (Schedule E – Form 1040) or Profit or Loss From Farming
(Schedule F – Form 1040) will be instructed to enter any cash back included in the Form 1099-K amount as an
‘other’ expense when computing taxable income.

                                                                                                            Page 5
                           Plans for the Implementation of Merchant Card
                         Reporting Could Result in Burden for Taxpayers and
                             Problems for the Internal Revenue Service



Returns and allowances has long been defined as a contra revenue account that reports:
1) merchandise returned by a customer and 2) allowances granted to a customer for prompt
payment or because the seller shipped improper or defective merchandise. We are concerned
that rather than including cash back in returns and allowances, taxpayers and preparers will
either neglect to reduce their gross profits by the amount of cash back provided to their
customers or they will report their merchant card and third-party payments on line 1a net of the
cash back amounts.
The Treasury Inspector General for Tax Administration presented another option for the IRS to
consider, which would include specific line items on the tax returns for both merchant card sales
and cash back amounts, as described in Figure 4.
            Figure 4: Additional Option for Redesigned 2011 Schedule C

     Part I - Income
       1 Gross cash sales                                                           $
       2a Gross merchant card sales                            $
       2b Less cash back                                       $
       2c Net merchant card sales                                                   $
          (subtract line 2b from line 2a)
       3 Total Gross Receipts                                                       $
         (add lines 1 and 2c)
       4 Returns and allowances                                $
       5 Subtract line 4 from line 3                                                $
       6 Cost of goods sold                                    $
       7 Gross Profit. Subtract line 6 from line 5                                  $
   Source: Treasury Inspector General for Tax Administration Redesigned Schedule C (2011).

The IRS took immediate corrective action to address our concerns regarding Schedule C (see
footnote 7) and is looking at the other forms affected (Schedules E and F (Form 1040) and
Forms 1065, 1120, and 1120S) to make similar improvements to the forms and schedules and
their corresponding instructions.
Misreporting cash back may result in a mismatch when the IRS compares gross receipts from
merchant card payments as reported on the tax return with amounts on Form 1099-K. These
mismatched amounts may cause the IRS to contact the taxpayer for an explanation, increasing
the burden on both the taxpayer and the IRS.



                                                                                             Page 6
                          Plans for the Implementation of Merchant Card
                        Reporting Could Result in Burden for Taxpayers and
                            Problems for the Internal Revenue Service



Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
ensure that changes similar to those drafted for Schedule C are made to Schedules E and F
(Form 1040) and Forms 1065, 1120, and 1120S to confirm that there is no confusion about
where to enter cash back on the income tax return to arrive at taxable income and that the
amounts entered on the tax return can be matched with amounts on Form 1099-K. The IRS
should monitor the ‘merchant card and third-party network payments’ amounts that taxpayers
enter on their income tax return to ensure that taxpayers and preparers understand how to
properly report gross receipts and cash back amounts. If warranted, the income tax returns
should be changed to include a specific line for cash back.
       Management’s Response: IRS management has revised Schedule C (Form 1040)
       and will revise Forms 1065, 1120, and 1120S to inform taxpayers where to enter cash
       back on the return. Since cash back transactions for Schedules E and F (Form 1040)
       filers are infrequent, the IRS will include the information in the instructions for these
       forms.
       IRS management will monitor the amounts reported for merchant card and third-party
       payments and communicate to taxpayers and practitioners challenges identified in the
       filing of the new Form 1099-K.

Steps Were Taken to Reduce Mismatches of Taxpayer Identification
Numbers and Names on Information Documents, but the Risk of
Backup Withholding Caused by Mismatched Documents Still Exists
In discussions with Treasury Inspector General for Tax Administration auditors, the IRS
indicated it intends to validate the TINs and names of taxpayers shown on Forms 1099-K as the
documents are received. However, as of the date of our review, the IRS’s risk assessment and
implementation plan did not contain adequate details regarding the risks associated with any
inability to perform these validations and the resulting initiation of backup withholding, as well
as appropriate contingencies.
The IRS does provide access to a system called the E-Services On-Line TIN Matching Program
that can be used to verify the merchant name and TIN in advance of filing Forms 1099-K. This
should help resolve issues before they occur. In addition, the IRS has a system in place to
validate the TINs on the information documents when they are filed with the IRS. This
validation takes place in May of each year and at other times throughout the year.
The IRS initially estimated 125 million Forms 1099-K would be issued for merchant card
reporting. That estimate was recently reduced to approximately 54 million. Based on the IRS’s
historical information regarding the prefiling rate of unmatched TINs and names on information

                                                                                            Page 7
                         Plans for the Implementation of Merchant Card
                       Reporting Could Result in Burden for Taxpayers and
                           Problems for the Internal Revenue Service



documents, resolving the mismatches may take significant resources for the IRS, payment
settlement entities, and taxpayers.
The IRS’s computed prefiling rate of mismatched records from its E-Services On-Line TIN
Matching Program for 4 fiscal years is included in Figure 5.
                          Figure 5: Prefiling TIN Mismatch Rate

                                    FY                         Percentage
                                   2006                            10.4
                                   2007                            13.7
                                   2008                            26.3
                                   2009                            29.5
                    Source: IRS Electronic Products and Services Support Office.

Historically, most mismatched TINs are resolved. The IRS reported that for 4 years (Tax
Years 2006–2009), an average of only 1.78 percent of information documents received and
processed through TIN validation had name and TIN mismatches. In addition, backup
withholding requirements do not take effect until Calendar Year 2012 providing more time
to resolve mismatches. However, as discussed above, millions more information documents
are expected to be filed. If mismatches are not resolved, merchants and payment settlement
entities will be burdened with backup withholding requirements.


Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
ensure the risk assessment and implementation plan adequately address the issue of mismatched
TINs and names and the initiation of backup withholding.
       Management’s Response: IRS management agreed with this recommendation. TIN
       Matching is an existing service offered to certain Form 1099 filers. The IRS submitted a
       Unified Work Request to add the Form 1099-K to the TIN Matching System. To date,
       the number of mismatches identified has been minimal and should not cause a burden of
       backup withholding on taxpayers and filers. The IRS is updating On-Line TIN Matching
       Program (Publication 2108A).
       In addition, the IRS has performed an impact assessment regarding Form 1099-K on
       backup withholding. Integration of backup withholding requirements into the existing
       backup withholding program has commenced to ensure timely implementation of the
       provision for 2012.


                                                                                          Page 8
                             Plans for the Implementation of Merchant Card
                           Reporting Could Result in Burden for Taxpayers and
                               Problems for the Internal Revenue Service



Additional Details in the Risk Assessment and Implementation Plan
Could Increase the Chance of Successful Implementation
The IRS has developed a framework to identify certain risks and steps needed to implement the
intent of the merchant card reporting legislation. However, as of the date of our review, we
found some significant issues were not adequately documented in the IRS’s plans. We believe
additional steps will facilitate a more successful and timely implementation. The IRS has
combined three different pieces of legislation into a single program known as the Information
Reporting and Document Matching (IRDM) program. The implementation of the merchant card
reporting legislation is included in the IRDM program. The IRDM program is intended to allow
the IRS to develop a system that will encompass more than one activity. With the magnitude of
implementing three different pieces of legislation into one program, it is important that all
significant risks and implementation steps be considered and documented.

The risk assessment did not address several significant risks
To successfully deliver a project of this magnitude, managers must thoroughly analyze and
quantify risk before and during the project, as well as develop effective response strategies to
deliver projects that meet the demands of stakeholders such as Congress and taxpayers. Risk in
this case is defined as an uncertainty that can have a negative effect on meeting project
objectives. Risk assessments need to address the potential for delay, disruption, or rework and
address contingency plans as needed. In addition, a complete risk assessment should estimate
the likelihood that a risk may occur.
The risk assessment should help identify specific risks and controls necessary to reduce or
eliminate the risks. As of April 2010, the risk assessment prepared for the IRDM program for
the three laws consists of:
    1. Dependency on Projects and Organizations.9
    2. Final Proposed Forms.
    3. Organizational Readiness.
    4. Modernization and Information Technology Services (MITS) Delivery of Targeted
       Functionality.
Specific risks associated with the implementation of merchant card reporting were not
documented in this risk assessment. The MITS organization, responsible for computer


9
  There are numerous projects within the IRDM program requiring coordination and communication among internal
and external stakeholders. The program schedule will need to be closely monitored and tracked to ensure that the
program stays on track and lines of communication remain open. IRDM program performance will be affected as a
result of any problems or delays with dependent projects or organizations.
                                                                                                         Page 9
                               Plans for the Implementation of Merchant Card
                             Reporting Could Result in Burden for Taxpayers and
                                 Problems for the Internal Revenue Service



programs, prepared a Solution Concept document in February 2009 specific to merchant card
reporting which contained some elements of a risk assessment, but this was for the MITS
organization’s work only and indicates that not all affected interfaces were identified. It was also
based on the initial concept of a single field added to Miscellaneous Income (Form 1099-MISC).
The new Form 1099-K has added 12 additional fields for monthly totals.
Some of the risks specific to merchant card reporting that we believe should have been identified
early and documented include:
     •   Programming may not be completed in order to use the data.
         As discussed previously, the Tax Year 2011 income tax forms have not been redesigned
         and published to make use of the Form 1099-K information that will be sent to taxpayers
         and the IRS beginning in Calendar Year 2012. Programming must be completed to make
         use of the new income tax form designs and data fields before the system programming
         can be done to compare the tax return data to Form 1099-K data in IRS information
         document files. All of the programming must be tested prior to being put into a
         production mode to handle the data.
     •   Capacity of IRS systems may not be adequate to match TINs and names when the new
         documents are first received at the IRS requiring correspondence with the sender on any
         mismatches.
         The July 2010 executive briefing for the IRDM program indicated that some of the
         systems are at capacity before all of the new information documents begin arriving. The
         IRS indicates it has ordered the equipment necessary to implement this law. The
         Affordable Care Act10 has recently added additional information reporting requirements
         which may significantly increase this risk.
     •   Sensitive taxpayer data could be at risk of disclosure.
         IRS guidance requires that every system with Personally Identifiable Information11 have a
         Privacy Impact Assessment;12 however, there is no mention of security reviews in the risk
         assessment. Discussions with IRS personnel indicated that existing systems with security
         in place were going to be used, but a new system is scheduled to be built based on an


10
   The Patient Protection and Affordable Care Act, Pub. L. No. 111-148, 124 Stat. 119 (2010). (The portion of this
law that expanded the reporting requirements for Form 1099-MISC was repealed April 14, 2011.)
11
   Personally Identifiable Information is information that can be used to distinguish or trace an individual’s identity,
either alone or when combined with other personal or identifying information that is linked or linkable to a specific
individual.
12
   The Privacy Impact Assessment was created by the IRS’s Office of Privacy Advocate in 1995 to better ensure the
confidentiality, integrity, and privacy of taxpayer information. It is a vehicle for addressing privacy issues in a
system under development which also provides a means to assure compliance with applicable laws and regulations
governing taxpayer and employee privacy.
                                                                                                               Page 10
                            Plans for the Implementation of Merchant Card
                          Reporting Could Result in Burden for Taxpayers and
                              Problems for the Internal Revenue Service



         existing one. MITS did some risk assessments based on existing systems and plans to do
         the security testing on the new system. The IRS stated that it follows detailed steps as
         required by law to ensure the security of sensitive taxpayer data. However, we believe
         that because of the significant risk associated with transmitting and storing large amounts
         of sensitive data, the effect if the data are compromised, and the fact that the IRS has
         been criticized in the past for security weaknesses, the IRS should have specifically
         addressed this issue in its risk assessment to ensure all necessary steps were taken and
         contingency plans were developed as necessary.
         The Government Accountability Office (GAO) issued a report13 in March 2009 that
         states, “Security weaknesses continue to affect IRS’s modernization environment. As
         GAO recently reported, IRS continues to have weaknesses in its information security
         controls. In addition, the Treasury Inspector General for Tax Administration reported
         that two tax administration systems were deployed with known security vulnerabilities
         relating to the protection of sensitive data, system access, monitoring of system access,
         and disaster recovery.”
         The IRS indicated it plans an education program for the payers after the regulations are
         finalized, but these plans are not included in the implementation plan or risk assessment.
         When asked about security information being included in the education program, the IRS
         responded that most of the payers that will be submitting the forms are already dealing
         with the IRS and know about security and how to use the IRS systems. The IRS has no
         information at this time about the characteristics of all the payment settlement entities
         that will be involved with this new requirement. Since Personally Identifiable
         Information will be maintained by the payment settlement entities under the regulations,
         including information about security of taxpayer information in the educational materials
         would help these entities meet the requirements of regulations.
     •   Payment settlement entities and merchants will require significant education. In addition,
         new forms and instructions must be developed. Failure to deliver these timely could
         significantly affect the timeliness of the implementation of merchant card reporting and
         businesses ability to meet the initial due date for reporting. Internal due dates are already
         being delayed; however, the impact of this delay is not known at this time. Subsequent to
         our review period, the IRS reported that it had completed a critical path analysis, and
         none of the slippage should affect timely delivery of the project.
The IRS is currently updating its risk assessment monthly and relying on its internal procedures
to handle issues after they develop. Without a timely, complete risk assessment, unforeseen
circumstances could result in failure to implement the law as intended by Congress.


13
  Business Systems Modernization: Internal Revenue Service’s Fiscal Year 2009 Expenditure Plan (GAO-09-281,
dated March 2009).
                                                                                                   Page 11
                                 Plans for the Implementation of Merchant Card
                               Reporting Could Result in Burden for Taxpayers and
                                   Problems for the Internal Revenue Service



Recommendation
Recommendation 3: The Commissioner, Small Business/Self-Employed Division, should
ensure the IRS adds sufficient detail to this and future risk assessments to address the full scope
of the project.
           Management’s Response: IRS management agreed with this recommendation. The
           program has a well documented risk assessment process that has been implemented to
           include identification of risk mitigation and impact analysis. The risk assessment process
           ensures that all risks and mitigation strategies are documented and approved by
           governance.
           Detailed Work Breakdown Structures have been developed that cover the full scope of
           the program. In addition, risks covering the full scope of the program as well as risks
           specific to the implementation of merchant card reporting were documented and
           monitored on the governance risk matrix.
           Tax Year 2011 income tax forms have new lines to facilitate matching for the
           Form 1099-K. The IRDM program’s implementation plans include specific merchant
           card legislation requirements that support line-to-line matching as well as testing of data
           at various phases.
           The IRDM program follows the IRS Enterprise Life Cycle. Cybersecurity’s concurrence
           is required for each Enterprise Life Cycle milestone exit. Cybersecurity performs a
           Security Controls Assessment prior to the IRDM program beginning operation. The
           Federal Information Security Management Act14 security controls are required to be in
           place to ensure the protection of sensitive data. These controls are tested and any risks
           are identified along with mitigations prior to system production.

The implementation plan for merchant card reporting is too general to be an
effective management tool
One of the basic purposes of an implementation plan is to help management track, monitor, and
evaluate the progress of a project or plan. The plan helps identify possible problems in advance,
as they arise, because alternative solutions have already been considered. A plan document
containing the major milestones and a schedule for the implementation is necessary in order to
know if the project is on schedule and on budget. In the GAO report referred to earlier, the GAO
reported on the IRS’s use of conditional milestones (whereby projects are allowed to continue
with outstanding issues needing to be addressed) which were not supported by documented
procedures and could potentially be used to mask cost and schedule overruns. The GAO



14
     44 U.S.C. §§ 3541–3549.
                                                                                               Page 12
                            Plans for the Implementation of Merchant Card
                          Reporting Could Result in Burden for Taxpayers and
                              Problems for the Internal Revenue Service



recommended that the IRS have plans with specific time periods and develop quantitative
measures to meet project scope expectations.
The IRDM program implementation plan for merchant card reporting was not specific enough.
Although all major milestones should have been planned and scheduled at the beginning of the
project, some key milestones were not documented in the plan available at the time of our
review. For example, there was no mention of validating the merchants’ TINs when the
Form 1099-K information document is originally received from the payment settlement entity.
The IRS indicated it intends to validate the TINs as the documents are received. However, there
is no indication in the plan of what will happen when names and TINs do not match data on IRS
records. There is a requirement for backup withholding on the Form 1099-K if the merchant’s
TIN is not correct, yet there is no indication in the plan of how this will be handled or if it was a
consideration.
The IRS relies heavily on its computer systems to process tax returns and collect taxes. Yet the
plan does not consider the security of the computer systems being planned and changed or the
new data being received. The MITS organization responsible for the actual program
development said that it will do a system security check even though this was not scheduled in
the plan. The IRS continues to add details to its plan. In light of issues related to system security
previously reported by the GAO,15 we expected the IRS to have more detail of the security
considerations in its plan.
Even though all items in the law have been addressed, we do not believe the IRS made plans in
sufficient detail for merchant card reporting to be implemented in an efficient manner and with
all major steps documented. A fully documented plan could assist the IRS in future planning and
cost estimating as well as ensuring all important risks were considered and dealt with.
Subsequent to our review, the IRS reported to the Treasury Inspector General for Tax
Administration that it had added significant detail to its overall plan and strategy.

Recommendation
Recommendation 4: The Commissioner, Small Business/Self-Employed Division, should
ensure the IRS adds sufficient detail to this and future implementation plans to indicate the full
scope of the project and expected or estimated due dates.
        Management’s Response: IRS management agreed with this recommendation.
        Detailed Work Breakdown Structures have been developed that cover the full scope of
        the program, including expected production delivery dates.




15
 Information Security: IRS Needs to Continue to Address Significant Weaknesses (GAO-10-355, dated
March 2010).
                                                                                                    Page 13
                         Plans for the Implementation of Merchant Card
                       Reporting Could Result in Burden for Taxpayers and
                           Problems for the Internal Revenue Service



Financial Reporting Was Not Addressed When Expenditures Began to
Be Incurred
In order to successfully manage a project, management
needs financial and tracking reports on a regular basis to
know if the project is on schedule and within budget. In        Financial reporting needs to
                                                                be considered and planned
June 2010, the Office of Management and Budget issued
                                                                 at the start of a project to
a memorandum to the heads of executive departments                  properly track costs.
and agencies informing them that in order to lower cost
and improve government performance, the Federal
Chief Information Officer was beginning a review of the highest risk Information Technology
projects across the Federal Government. “Agencies will be required to present improvement
plans to the Chief Information Officer for projects that are behind schedule or over budget.
Where serious problems are identified and cannot be corrected, further actions should be taken,
including potential adjustments to FY 2012 agency budgets. … The Director of the Office of
Management and Budget is directing executive departments and agencies to refrain from
awarding new task orders or contracts for financial system modernization projects.”
The IRS has a document for budget management of the IRDM program that is dated
February 26, 2010. The document indicates there is a project code that will allow the
verification and control of IRDM program costs reported at the project level. After repeated
requests for financial or tracking reports showing the expenditures and due dates of items for this
project, the IRS has supplied some documentation to show that financial reporting is in place or
has been considered in the IRDM program overall plan.
Approximately $8 million was allocated to merchant card reporting work from the IRS’s
FY 2008 budget. The IRS could not provide an accounting of how these funds were used. The
FY 2009 budget included $23 million to implement a number of legislative proposals, which
included merchant card reporting but did not specify how much was for this law. The FY 2011
Congressional Budget Submission specifically requests $2.1 million and 19 new employees for
the matching of the merchant payment card data to tax returns.
The MITS organization has indicated that it has allocated $22.5 million for the IRDM program
for FY 2010, yet provided no explanation of the item due dates or scheduled delivery and did not
specify the amount for merchant card reporting.
The Small Business/Self-Employed Division indicated that the implementation costs for
merchant card reporting had been absorbed in normal operating costs from its passage through
the latter part of Calendar Year 2010 because the expenditures were small. It now has begun
utilizing the programs in place to identify implementation expenditures and review the related
reports on a regular basis. These expenditures are identified by codes issued by the Chief
Financial Officer. Since it was absorbing the costs, there were no examples of its financial


                                                                                           Page 14
                         Plans for the Implementation of Merchant Card
                       Reporting Could Result in Burden for Taxpayers and
                           Problems for the Internal Revenue Service



reports at the time of our review. The MITS organization provided us with a copy of the online
information that it had available for viewing its allocations and expenditures in total.
If the IRS does not accumulate costs when it first begins expending resources on a project, as in
when preparing the risk assessment, it will not have good historical information on which to base
future estimates of cost and times to accomplish tasks.

Recommendation
Recommendation 5: The Commissioner, Small Business/Self-Employed Division, should
ensure that financial reporting is added to the risk assessment and implementation plan to help
ensure the costs and schedules are tracked and reported timely. Accumulation of costs should
begin when resources are first used on the project, as in preparing the risk assessment.
       Management’s Response: IRS management agreed that financial reporting should
       be tracked and monitored. IRDM program costs are being tracked and monitored through
       an Exhibit 300. The monthly IRDM program reporting includes monitoring of developed
       spending plans using Earned Value Management, where costs and schedules, including
       explanations for variances, are reported and assessed. In addition, through the Earned
       Value Management reporting, the program reports monthly on all accomplishments and
       risks to schedules and costs.
       The Small Business/Self-Employed Division has established written guidance for
       individuals to charge costs when performing work in support of the IRDM program. The
       Internal Order Code Document Matching Tax Gap Initiative was established to capture
       these costs. Reports are available in the Integrated Financial System, which allows
       tracking of labor and nonlabor costs. These reports are generated and monitored on a
       biweekly basis.




                                                                                          Page 15
                            Plans for the Implementation of Merchant Card
                          Reporting Could Result in Burden for Taxpayers and
                              Problems for the Internal Revenue Service



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has a complete and detailed plan in place
to control and schedule the implementation of the merchant card reporting law as intended by
Congress. This involves new data (gross sales from Merchant Card and Third Party Network
Payments (Form 1099-K)) being received for individual and business units,1 using the new data
to check against tax return items reported, collecting additional taxes as necessary, and tracking
the costs of this multibusiness unit program. We obtained the information for this audit by
interviewing the IRS teams responsible for the plan and accessing IRS information on various
IRS internal web sites. To achieve this overall objective, we:
I.      Determined if the IRS has a plan to implement merchant card reporting.
        A. Obtained and analyzed the IRS-prepared risk management plan to ensure:
            1. The IRS has addressed all major risks.
            2. The steps have been designed to address each major risk.
        B. Analyzed high-level and detailed implementation schedules.
        C. Reviewed the IRS’s implementation plan to ensure it addresses all of the issues in the
           law.
        D. Reviewed any regulations regarding the new law to determine if the IRS has written
           the regulations in accordance with the intent of Congress, based on any hearings and
           committee reports.
        E. Interviewed Legislative Analysis, Tracking, and Implementation Services personnel
           and reviewed steps taken or still being considered to implement the law.
II.     Determined if the implementation plan has addressed security issues.
        A. Discussed with IRS personnel any security controls in place to ensure the IRS has the
           capacity and systems to receive and secure all of the new data.
        B. Discussed with IRS personnel the controls the IRS has requested to be in place for
           businesses that are involved with collecting and then sending the new data to the IRS.



1
 These include the Wage and Investment Division, the Small Business/Self-Employed Division, and the
Large Business and International Division.
                                                                                                      Page 16
                              Plans for the Implementation of Merchant Card
                            Reporting Could Result in Burden for Taxpayers and
                                Problems for the Internal Revenue Service



III.    Determined how the IRS plans to make use of the new data.
        A. Discussed with IRS personnel how the new data will be received and validated and
           how error records will be handled.
        B. Discussed with IRS personnel plans to establish the new Business Master File2
           underreporting database and procedures.
        C. Discussed with IRS personnel how this new information will be incorporated and
           used in the Individual Master File3 underreporting process that is currently in place.
        D. Discussed with IRS personnel how and when the backup withholding will post to the
           Master Files.4
        E. Verified if various divisions within the IRS have different plans (i.e., the Tax Exempt
           and Government Entities Division and the Large Business and International
           Division). We also determined if all the divisions make use of an automated
           underreporter type of process.
        F. Reviewed the plan for making use of the new data.
             1. Reviewed the instructions for making the gross payment card and third-party
                network sales dollars provided by the payment settlement entities (the ultimate
                organization or entity responsible for making final payments to merchants and
                reporting annually to the IRS on payment card and third-party network
                transactions) match the business gross income as reported on a tax return. Items
                included were:
                 a. Cash back amounts.
                 b. Electronic checks.
                 c. Pay Pal-type sales.
                 d. Cell phone-type payments.
             2. Reviewed the IRS’s plans, if any, for ensuring the data received from the
                merchant providers are accurate.
             3. Reviewed the training programs being established for IRS employees learning
                how to make use of the new data.


2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 17
                             Plans for the Implementation of Merchant Card
                           Reporting Could Result in Burden for Taxpayers and
                               Problems for the Internal Revenue Service



        G. Reviewed any documentation for writing and testing the logic on how the IRS will
           use the new data.
        H. Analyzed the plans to purchase and schedule any necessary additional resources in
           order to make use of the new data.
        I. Analyzed the schedule for using the additional resources in order to make use of the
           new data.
IV.     Determined if the IRS can justify the numbers and income provided to Congress by the
        Department of the Treasury.
        A. Analyzed the supporting documentation used by the Department of the Treasury.
        B. Discussed with IRS personnel if the figures provided by the Department of the
           Treasury are valid and, if not, obtained the IRS’s figures along with supporting
           documentation.
V.      Determined if the financial tracking system is in place for this project.
        A. Verified that specific accounting codes were assigned for tracking costs on this
           project.
        B. Held discussions with the IRS Chief Financial Officer’s office to determine if reports
           on the costs and budgets for this project will be issued on a scheduled basis.
        C. Verified there are controls in place to control/report cost overruns, who will be
           receiving these reports, and what will be done to address any problems.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Chief Technology Officer, Small
Business/Self-Employed Division, and Wage and Investment Division policies, procedures, and
practices for processing selected work streams in campus5 operations. We evaluated these
controls by interviewing management and reviewing applicable manuals.




5
 This is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 18
                        Plans for the Implementation of Merchant Card
                      Reporting Could Result in Burden for Taxpayers and
                          Problems for the Internal Revenue Service



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Richard J. Calderon, Audit Manager
Roy E. Thompson, Audit Manager
Glory Jampetero, Lead Auditor
W. George Burleigh, Senior Auditor




                                                                                    Page 19
                       Plans for the Implementation of Merchant Card
                     Reporting Could Result in Burden for Taxpayers and
                         Problems for the Internal Revenue Service



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Chief Technology Officer OS:CTO
Audit Liaisons:
       Chief, Program Evaluation and Improvement CL
       Director, Communications, Liaison, and Disclosure SE:S:CLD
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                                 Page 20
         Plans for the Implementation of Merchant Card
       Reporting Could Result in Burden for Taxpayers and
           Problems for the Internal Revenue Service



                                                  Appendix IV

Management’s Response to the Draft Report




                                                            Page 21
  Plans for the Implementation of Merchant Card
Reporting Could Result in Burden for Taxpayers and
    Problems for the Internal Revenue Service




                                                     Page 22
  Plans for the Implementation of Merchant Card
Reporting Could Result in Burden for Taxpayers and
    Problems for the Internal Revenue Service




                                                     Page 23
  Plans for the Implementation of Merchant Card
Reporting Could Result in Burden for Taxpayers and
    Problems for the Internal Revenue Service




                                                     Page 24
  Plans for the Implementation of Merchant Card
Reporting Could Result in Burden for Taxpayers and
    Problems for the Internal Revenue Service




                                                     Page 25
  Plans for the Implementation of Merchant Card
Reporting Could Result in Burden for Taxpayers and
    Problems for the Internal Revenue Service




                                                     Page 26
